WR-B-99-04




     AUDIT
    REPORT

                              APPROVAL OF TITLE X
                              REMEDIATION CLAIMS




                                         JUNE 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                              June 25, 1999


MEMORANDUM FOR THE MANAGER, ALBUQUERQUE OPERATIONS OFFICE

FROM:                 Lawrence R. Ackerly, Regional Manager (Signed)
                      Western Regional Audit Office
                      Office of Inspector General

SUBJECT:              INFORMATION: Audit Report on "Approval of Title X Remediation Claims"

BACKGROUND

From 1943 to 1970, most of the uranium ore in the Untied States was milled under contract between the
U.S. Atomic Energy Commission and private companies. In the 1960s and 1970s, after these contracts
ended, many of the uranium mills closed down
and left large quantities of waste, such as uranium mill tailings and abandoned buildings at the sites.
Numerous scientific studies determined that the abandoned mill sites were
a potential health hazard. In response to this health hazard, the U.S. Congress passed
the Uranium Mill Tailings Radiation Control Act of 1978. Subsequently, Congress determined that the
Federal Government had a responsibility to pay for part of the sites reclamation costs. Consequently, a
reimbursement methodology was established and codified as Reimbursement for Costs of Remedial Action
at Active Uranium and
Thorium Processing Sites (10 CFR 765). This regulation allowed for mining companies to submit
remediation claims to Department of Energy (DOE) for review, approval, and reimbursement. However,
the claims had to be supported by reasonable documentation in order to be eligible for payment.

The objective of the audit was to determine if Title X--Remedial Action and Uranium Revitalization (Title
X) of the Energy Policy Act of 1992 remediation claims were properly supported and approved for
payment.

RESULTS OF AUDIT

  We reviewed seven remediation claims and found that the Albuquerque Operations Office (Albuquerque)
 approved portions of six claims that were properly supported. The seventh claim, however, was approved
 for payment even though an $18.1 million portion of the $30.5 million claim was unsupported. The $18.1
    million portion had twice been reviewed by the Defense Contract Audit Agency and found not to be
supported by reasonable documentation. Despite these audit results, Albuquerque approved the payment
of the claim. The claim would not have been approved for payment if Albuquerque had followed its
procedures for processing claims. As a result of its actions, Albuquerque approved an unsupported claim
that will cost taxpayers about $14.7 million, the Federal portion of the $18.1 million claim. We
recommended that Albuquerque (1) reverse the approval and payment decision of the $14.7 million
Federal portion of the claim and (2) follow its internal control procedures based on Title X requirements,
including procedures for approving claims for payment based solely upon reasonable documentation and
for appealing determinations.

MANAGEMENT REACTION

Albuquerque nonconcurred with our finding and recommendations.
APPROVAL OF TITLE X REMEDIATION CLAIMS

TABLE OF
CONTENTS


                 Overview

                 Introduction and Objective .............................................. 1


                 Conclusions and Observations ....................................... 1


                 Approval Of Title X Remediation Claims


                 Details of Finding............................................................ 3


                 Recommendations and Comments ................................. 6


                 Appendices


                 Scope and Methodology ................................................. 9


                 Calculation of Federal Portion of TVA Claim ................ 10
Overview
INTRODUCTION      From 1943 to 1970, most of the uranium ore in the United States was
AND OBJECTIVE     milled under contract between the U.S. Atomic Energy Commission,
                  a predecessor of the Department of Energy (DOE), and private
                  companies. In the 1960s and 1970s, after these contracts ended, many
                  of these uranium mills closed down and left large quantities of waste,
                  such as uranium mill tailings and abandoned buildings, at the mill sites.
                  Numerous scientific studies determined that the abandoned mill sites
                  were a potential health hazard. In response to this health hazard, the
                  U.S. Congress passed the Uranium Mill Tailings Radiation Control Act
                  of 1978. Title I of the Act directed DOE to stabilize, dispose of, and
                  control, in a safe and environmentally sound manner, uranium mill
                  tailings at 24 inactive uranium mill sites. Title II addressed the closure
                  of uranium mill sites that were still active in 1978.

                  Congress subsequently determined that the Federal Government had
                  a responsibility to pay for part of the mill site's reclamation costs.
                  Consequently, it passed Title X--Remedial Action and Uranium
                  Revitalization (Title X) of the Energy Policy Act of 1992. DOE
                  established a reimbursement methodology in its regulations codified as
                  Reimbursement for Costs of Remedial Action at Active Uranium and
                  Thorium Processing Sites (10 CFR 765). This regulation allowed for
                  mining companies to submit remediation claims to DOE for review,
                  approval, and reimbursement. However, the claims had to be supported
                  by reasonable documentation in order to be eligible for payment. The
                  objective of this audit was to determine if Title X remediation claims
                  were properly supported and approved for payment.

                  We reviewed seven remediation claims and found that the Albuquerque
CONCLUSIONS AND
                  Operations Office (Albuquerque) approved portions of six claims which
OBSERVATIONS
                  were properly supported. The seventh claim, however, was approved
                  for payment even though an $18.1 million portion of the $30.5 million
                  claim was unsupported. The claim would not have been approved for
                  payment if Albuquerque had followed its procedures for processing
                  claims. As a result of its actions, Albuquerque has approved an
                  unsupported claim that may cost taxpayers about $14.7 million, the
                  Federal portion of the $18.1 million claim.




Page 1                                                Introduction And Objective/
                                                      Conclusions And Observations
         This audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                         _______(Signed)________
                                         Office Of Inspector General




Page 2                                     Conclusions And Observations
Approval Of Title X Remediation Claims
Claim Approval      Albuquerque approved portions of six claims that were properly
                    supported. However, it also approved an $18.1 million portion of
                    a $30.5 million claim from the Tennessee Valley Authority (TVA)
                    for remediation of its Edgemont, South Dakota, site that was not
                    properly supported. Albuquerque did a technical review of the claim
                    and requested the Defense Contract Audit Agency (DCAA) to
                    perform an audit. Based on the review and DCAA’s audit, Albuquerque
                    approved a portion of the claim for payment in July
                    1995 and disallowed an $18.1 million portion due to the lack of
                    reasonable documentation. Two years later, TVA resubmitted its
                    original claim to Albuquerque with some additional documentation.
                    Once again, Albuquerque requested that DCAA audit the claim. Similar
                    to the finding of its first audit, DCAA determined that the
                    documentation submitted by the claimant did not support the $18.1
                    million portion of the claim. In spite of the lack of reasonable
                    documentation, Albuquerque approved TVA's resubmitted claim for
                    payment.

Reasonable          Title X authorizes active uranium or thorium processing site owners
Documentation       reimbursement for the costs of decontamination, decommissioning,
                    reclamation, and other remedial action. Title X requires that
                    reimbursement claims be supported by reasonable documentation.

                    DOE issued implementing regulations as Title 10 of the Code of Federal
                    Regulations (CFR), Section 765. According to the CFR, remediation
                    claims for work, which occurred before enactment of
                    Title X, can be approved for payment by DOE if the claimant
                    produces reasonable supporting documentation. Further, the
                    CFR states that the documentation used in support of a claim
                    must demonstrate that remediation costs were incurred specifically
                    for activities in the site's reclamation plan. Additionally, the
                    documentation must clearly demonstrate that the remediation costs
                    were authorized, completed, billed, and paid. The CFR requires all
                    summary documentation used in support of the claim be cross-
                    referenced to the relevant page and activity of the licensee’s reclamation
                    plan or other written authorization. The CFR also requires DOE to
                    provide the claimant with a written determination of its decision to
                    approve, approve in part, or deny a claim. Finally, the CFR requires a
                    claimant to utilize the DOE’s administrative appeals process to appeal
                    any Title X determination. Thus, a claimant may file an appeal to
                    DOE’s Office of Hearings and Appeals.



Page 3                                                                 Details Of Finding
                       Subsequent guidance issued to Title X claimants by DOE confirmed and
                       amplified the requirements of Title X. For instance, in February 1993,
                       before the first claim was filed, DOE sent TVA a letter which stated that
                       reasonable documentation would be required to support
                       any claim. In May 1994, TVA and the other claimants were provided
                       with copies of DOE's guidance for preparing claims. The guidance was
                       further discussed in a June 1994 meeting attended by an Albuquerque
                       claim reviewer and a TVA representative. Both the guidance and the
                       discussion pointed out that to be considered reasonable, supporting
                       documentation must demonstrate that a clear trail exists between the
                       claimed expenditures and remediation requirements. Additionally, the
                       documentation must clearly illustrate that the expenditures were
                       authorized, completed, billed, and paid.

                       In April 1994, the Deputy Assistant Secretary for Environmental
                       Management issued a memo delegating implementation of the Title X
                       reimbursement program to Albuquerque. As a result, Albuquerque
                       became responsible for approving Title X claims.

                       The TVA claim was approved because established internal controls were
Not Following
                       disregarded. Specifically, Albuquerque approved the resubmission even
Established Controls
                       though it did not meet the reasonable documentation requirement, and
                       Albuquerque allowed TVA to bypass the appeals process.

                                    Approval Without Reasonable Documentation

                       Title X requires all claims to be supported by reasonable documentation.
                       Although Albuquerque adhered to this requirement
                       in some instances, it did not always do so. Our review of the seven
                       largest claims submitted to Albuquerque showed that Albuquerque
                       disallowed claims or portions of claims that were not supported with
                       reasonable documentation. For example, Albuquerque disallowed a $1
                       million portion of a claim due to the lack of reasonable documentation.
                       Another portion of a claim for about $5,000 was disallowed for lack
                       of supporting documentation. Albuquerque had also disapproved a
                       portion of TVA's original claim because it lacked support.

                       However, Albuquerque reversed its decision following TVA's
                       resubmission and approved a portion of the claim even though it was
                       still not supported with reasonable documentation. The explanation




Page 4                                                                    Details Of Finding
         offered by the Albuquerque approving official for circumventing the
         intent of Title X was that TVA was the only claimant which had
         completed its reclamation work prior to passage of Title X. Further, the
         official believed that TVA had done the remediation work and incurred
         the costs because he had knowledge of the site reclamation activities
         when he worked for TVA. If Albuquerque followed its control
         procedures, the unsupported resubmission would not have been
         approved, the belief by the former TVA official would not have been
         accepted without corroborating evidence, and the audit work done by
         DCAA would not have been dismissed.

                                      Appeals Process

         Title X provides an appeals process for claimants who disagree with a
         final determination. The appeal must be submitted to the Office of
         Hearings and Appeals within 45 days. Albuquerque's July 1995
         determination disallowed $0.1 million as an unallowable cost and $18.1
         million of TVA's claim for lack of reasonable support. The letter sent to
         the claimant explained the appeals process. However, Albuquerque's
         letter also stated that the claimant could resubmit its claim if it obtained
         additional support for the disallowed portion of the claim and if
         additional funding for remediation claims became available. Thus,
         Albuquerque allowed this claimant a second course of action--one not
         authorized in the legislation that created Title X.

         A month later, DOE's Office of Environmental Management (EM)
         reinforced the mistake. Personnel within EM sent a letter to TVA that
         said: "While we have disallowed these costs at this time, we do not
         believe it is necessary for TVA to file an appeal to maintain their future
         eligibility. Rather, we suggest that TVA resubmit its claim for these
         costs along with additional supporting information if, as notified by the
         Department, excess funds for reimbursement are available."

         The two actions, the first by Albuquerque and the second by EM,
         encouraged TVA to circumvent the appeals process, a control procedure
         that was intended by Title X. Further, other claimants were invited to
         notify Albuquerque if they disagreed with the audit work done by
         DCAA. Although we did not find that other claimants had resubmitted
         disallowed claims, the potential for them to do so existed because of the
         way the appeals process was circumvented.




Page 5                                                       Details Of Finding
Effect Of The      If this approval is not reversed, DOE may pay TVA about $14.7 million
Approval           (see Appendix 2). The payment was determined based on the ratio of
                   Government sales to total mine sales. Therefore, for the TVA claim, the
                   Federal portion is 81.3 percent and TVA's portion is 18.7 percent.
                   Although the claim has been approved, it has not yet been paid.

RECOMMENDATIONS    We recommend that the Manager, Albuquerque Operations Office
                   require the Director of its Environmental Restoration Division to:

                   1. reverse the approval and payment decision for the $14.7 million
                      Federal portion of TVA's claim and notify TVA of the decision;
                      and,

                   2. follow its internal control procedures based on Title X requirements,
                      including procedures for approving claims for payment based solely
                      upon reasonable documentation and for appealing determinations.

                   Albuquerque nonconcurred with the finding, recommendations, and the
MANAGEMENT
                   cost savings. Management contended that (1) the regulations gave them
REACTION AND
                   certain flexibility in the type of documentation they could accept; (2) the
AUDITOR COMMENTS
                   Office of Inspector General (OIG) did not understand DCAA's role in
                   reviewing claims, (3) the appeals process was not circumvented, and
                   (4) the effect of the approval was less than claimed by the OIG since
                   the claim exceeds the current reimbursement ceiling. Each of these
                   contentions is addressed below.

                   Management Comments: Management stated that Title X is a unique
                   program where traditional accounting practices may not always be
                   applicable; when work is performed prior to the passage of Title X,
                   provisions must be made for different circumstances and levels of
                   record-keeping; the OIG did not recognize the Management discretion
                   allowed by DOE's own regulation; and there is no risk that the
                   Government is reimbursing costs that were not incurred or paid.

                   Auditor Response: Title X and the CFR clearly state that reasonable
                   documentation is required for reimbursement of remediation activities
                   that took place prior to the passage of Title X. In its response to
                   the claimant's first submission, Management acknowledged that
                   there was a lack of documentation for amounts exceeding TVA's
                   reimbursement ceiling, and that additional documentation would be
                   required before the claim could be approved. Management also noted
                   that TVA was not relieved of any requirement for submission of


Page 6                                             Recommendations And Comments
         reasonable documentation. The only discretion allowed by the CFR
         is the provision for use of non-contemporaneous documentation, such as
         audit reports. This form of documentation may be acceptable if
         it proves that costs are reasonable. The CFR clearly states that all
         remediation claims must be supported by reasonable documentation.
         DOE’s guidance further states that costs that cannot be traced back
         to an approved reclamation plan or other written authorization are
         not reimbursable. Finally, DCAA twice determined that the
         documentation received by DOE in support of the $18.1 million
         portion of the claim did not meet the reasonableness standard.
         Therefore, the risk remains that the claim may include costs that
         were not related to remediation activities.

         Management Comments: Management contended that the OIG did
         not understand the role of DCAA, which was employed only to pass
         judgement on the accounting basis for the claim.

         Auditor Response: The OIG clearly understands that DCAA was
         required to determine if there was reasonable documentation to support
         the claim. In fact, DCAA’s Description of Work states that the audit
         of supporting documentation will verify the accuracy, legitimacy, and
         completeness of the claim. After reviewing the second submission,
         DCAA found that the claim was not supported by reasonable
         documentation. Subsequent to DCAA’s review, a former TVA
         employee asserted that the work had been done and the costs were
         reasonable. The employee, however, did not have first hand knowledge
         of the remediation costs or evidence to support the assertion. Thus,
         the OIG concluded that there was not a reasonable basis to approve the
         claim.

         Management Comments: Management contended that the appeals
         process was not circumvented because Title X is silent on the
         resubmission of disallowed claims.

         Auditor Response: Neither Title X nor 10 CFR 765 provide any
         alternative to the appeals process. In fact, the CFR states that the
         appeals process must be used to exhaust the claimant's administrative
         remedies. Thus, by inviting the claimant to resubmit its claim as
         opposed to going to the Office of Hearings and Appeals, DOE
         attempted to circumvent the appeals process.




Page 7                                  Recommendations And Comments
         Management Comments: Management contended that the approval of
         the resubmitted claim will not cost the taxpayers $14.7 million because
         the claim exceeds the current reimbursement ceiling.

         Auditor Response: In 1996, Congress increased the ceiling for uranium
         sites from $270 million to $350 million. Later, in testimony before the
         House of Representatives, in July 1998, a senior DOE official stated that
         the uranium reimbursement ceiling is greater than the amount of
         expected future claims. If total authorized funds have not been
         expended by 2005, the Secretary of Energy has the discretion to
         reimburse claimants whose costs exceed their individual ceilings.
         Consequently, funds may be made available to pay the entire TVA claim.
         Therefore, although the necessary funds are not currently available to
         pay TVA's entire claim, Albuquerque's approval of an unsupported claim
         permits its payment if adequate funding becomes available.




Page 8                                  Recommendations And Comments
Appendix 1
SCOPE         The audit was performed at Albuquerque's Environmental Restoration
              Division, Albuquerque, New Mexico, from September 1998 to March
              1999.

METHODOLOGY   To accomplish the audit objective, we:

                 • reviewed a judgmental sample of seven recent Title X claims
                   totaling about $484 million and constituting about 74 percent of
                   the total value of all claims;

                 • reviewed supporting documentation, including technical reviews
                   and DCAA audits;

                 • interviewed Albuquerque Environmental Restoration Division
                   personnel;

                 • interviewed Office of Hearings and Appeals personnel;

                 • interviewed Office of Southwest Area Programs (EM-45)
                   personnel; and,

                 • reviewed testimony of William Wisenbaker, Acting Associate
                   Deputy Assistant Secretary for Environmental Restoration
                   before the House Committee on Commerce, Subcommittee on
                   Energy and Power, July 27, 1998.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to the
              extent necessary to satisfy the objective of the audit. Accordingly, we
              assessed the significant internal controls and performance measures
              established under the Government Performance and Results Act of 1993
              related to Albuquerque’s review and approval of Title X remediation
              claims. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not rely extensively on computer processed
              data and, therefore, did not fully examine the reliability of that data.

              We discussed the finding with Albuquerque and DOE EM officials on
              March 22, 1999.




Page 9                                                   Scope And Methodology
Appendix 2


                            Calculation Of Federal Portion Of TVA Claim




   TVA's 1994 Claim                                                        $30.5 million
   Less Disallowed Title I Disposal Costs                $ 0.1 million
   Less Costs Lacking Reasonable Documentation           $18.1 million
     Total Disallowed                                                      $18.2 million
   1994 Approved Claim                                                     $12.3 million
   Federal Reimbursement Ratio                                             0.813
   Federal Portion of 1994 Approved Claim                                  $10 million



   TVA's 1997 Claim                                                        $30.5 million
   Less Previously Disallowed Costs                      $ 0.1 million
   Less Previously Approved Claim                        $12.3 million
     Total Previously Approved or Disallowed                               $12.4 million
   Balance Subject to Second Review                                        $18.1 million
   1997 Disallowed Costs                                                   $ 0.0
   1997 Approved Costs                                                     $18.1 million
   Federal Reimbursement Ratio                                             0.813
   Federal Portion of 1997 Approved Claim                                  $14.7 million




Page 10                                                          Calculation Of Federal Portion
                                                                 Of TVA Claim
                                                                       Report No. WR-B-99-04


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                      following alternative addresses:


                U.S. Department of Energy Management and Administration Home Page
                                      http://www.hr.doe.gov/ig
                                                 or
                                       http://www.ma.doe.gov


      Your comments would be appreciated and can be provided on the Customer Response Form
                                     attached to the report.
